                         DEPARTMENT OF HOMELAND SECURITY
                                               Office of Inspector General
                                            Dallas Field Office – Audit Division
                                               3900 Karina Street, Room 224
                                                    Denton, Texas 76208

                                                         March 12, 2004

MEMORANDUM

TO:                 Richard G. Hainje, Regional Director
                    FEMA Region VII



FROM:               Tonda L. Hadley, Field Office Director

SUBJECT:    Audit of the City of Overland Park, Kansas
            FEMA Disaster Number 1402-DR-KS
            Public Assistance Identification Number 091-53775-00
            Audit Report Number DD-08-04
________________________________________________________________________

The Office of Inspector General (OIG) audited public assistance funds awarded to the
City of Overland Park, Kansas (City). The objective of the audit was to determine
whether the City accounted for and expended Federal Emergency Management Agency
(FEMA) funds according to federal regulations and FEMA guidelines.

The City received an award of $3.96 million, from the Kansas Division of Emergency
Management, a FEMA grantee, for damages caused by severe ice storms on January 29
through January 31, 2002. The award provided 75 percent funding for ten large projects
and five small projects.1 The audit covered the period January 29, 2002, to November 21,
2002, during which the City claimed $3.96 million and received $2.98 million in FEMA
funds for direct program costs. The OIG examined the costs of six large and two small
projects totaling $3.34 million or 84 percent of the total award (see Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of the City’s accounting records, a judgmental sample of expenditures, and
other auditing procedures considered necessary to accomplish the audit objective.




1
  Federal regulations in effect at the time of the disaster, defined a large project as a project costing $52,000 or more
and a small project as one costing less than $52,000.
                                 RESULTS OF AUDIT

The City generally accounted for and expended FEMA funds according to federal
regulations and FEMA guidelines. However, their claim included $9,364 ($7,023 FEMA
share) in questioned costs for ineligible labor costs ($6,984) and excessive equipment
costs ($2,380).

Finding A: Ineligible Overtime Labor Costs

The City’s claim under Project 318 included $6,984 of ineligible overtime labor costs.
According to Office of Management and Budget (OMB) Circular A-87, Cost Principles
for State, Local, and Indian Tribal Governments, Attachment B, paragraph 11.a (1),
compensation for employees must conform to the governmental unit's established
policies and must be applied consistently to federal and non-federal activities. The City’s
claim for overtime did not follow established policies. The City’s policy states that only
hours in excess of 40 hours per week are eligible for overtime pay. However, the City
claimed overtime labor costs for hours in excess of 8 hours per day. Using this per-day
basis to calculate overtime resulted in $6,984 more costs than would have resulted from
using the per-week basis that was consistent with the City’s established policy for paying
overtime. Therefore, the OIG questioned $6,984 of ineligible overtime labor costs.

Finding B: Excessive Equipment Costs

The City’s claim under Project 318 also included $2,380 of excessive equipment costs.
FEMA’s Public Assistance Policy Digest (FEMA 321, October 2001, p.46) states,
“Equipment rates are applied only to the time the equipment is actually working. Standby
time and idle time are not eligible.” The City’s claim for snow removal costs incurred
during the first 2 days of the disaster included equipment charges for 24 hours per day.
However, for this period, equipment hours claimed for snow removal exceeded operator
hours claimed by 107.25 hours. Because using snow removal equipment required
operators, the number of equipment hours claimed should equal, or not exceed, the
number of operator hours claimed. Equipment time in excess of operator time represents
idle or standby time. Therefore, the OIG questioned $2,380 of ineligible equipment idle
time.

                                RECOMMENDATION

The Office of Inspector General recommended that the Regional Director, in coordination
with the Kansas Division of Emergency Management, disallow $9,364 of questionable
costs.

        DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

On January 8, 2004, the OIG discussed the results of the audit with officials from FEMA
Region VII, the Kansas Division of Emergency Management, and the City of Overland
Park. These officials agreed with the findings and recommendation.

                                             2
Please advise this office by May 11, 2004, of the actions taken or planned to implement
the recommendation, including target completion dates for any planned actions.

Should you have any questions concerning this report, please contact me at (940) 891-
8900. The major contributors to this report were Charles Riley and William Lough.




                                            3
                                                       EXHIBIT

                Schedule of Projects Audited
                   City of Overland Park
             FEMA Disaster Number 1402-DR-KS


   Project       Amount        Amount       Finding
   Number        Claimed      Questioned   Reference

Large
       6         $1,358,618       $    0
       8            841,154            0
       715          399,678            0
       34           216,202            0
       35           313,425            0
       318          130,678        9,364       A, B
Large Subtotal   $3,259,149       $9,364

Small
       33        $   49,000       $   0
       35            29,350           0
Small Subtotal   $   78,350       $   0

TOTAL            $3,337,499       $9,364




                              4
